                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS.

                                               CLOSEOUT MEMORANDUM

Case Number: A03060031                                                                       11           Page 1 of 2



     We were asked to reconsider a closed case1 containing allegations of plagiarism and intellectual
     property theft. The two documents alleged to contain the copied material and misappropriatedideas
     were an unpublished manuscript submitted to a peer-review journal: and a published conference
     proceedings paper.

     We compared the subject's3 two texts with several published alleged source texts provided to us.4
     The examination of the documents revealed no instances of direct or substantially similar copying to
     substantiate the allegation of plagiarism. While seemingly distinctive words were found in both
     subject and source texts, we found few synonyms in the thesaurus that retained the same meaning in
     the relevant context. Figures illustrated concepts common to both the source and subject documents.
     The similarities between these figures were insufficient to support an allegation of plagiarism.

     With regard to the allegation of intellectual thefi, we do find similarity between the subject's and
     source's work especially with regard to the conclusions and rationale. However, we find that the
     subject's experimental method and supporting data are sufficiently distinct from that reported in the
     source documents. Both subject and source are working in the same developing field of research. It
     is to be expected that similar conclusions and rationale would develop and could be valuable as
 -   confirmation of new concepts.

     A review ofsubject's awarded NSF proposal5indicates that the research presented is consistent with
     the work proposed. The program was aware of the potential overlap between the subject's work and
     the source documents' authors' work when making the award.6 The decision to fund the proposal in
     light of this information rests with the program office. At this time we find no reason to question
     this programmatic decision.

     We did note that the subject's use of citations throughout the manuscript, proceedings paper, and
     proposal was marginally adequate. Citations in the text were appropriate where used in that they
     supported the proffered statements. However, the subject made frequent generalized statements7
     without supporting citation in the text. The reference lists in each respective document appeared to


                                         able, this manuscript is still unpublished at this time.



      Specifically, the program office had the benefit of citations to some of the source material provided to our office as
     well as comments £tom the review panel.
     'For example statements that contained "It is well-known that.. ." or statements that provided historical perspectives.
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM




support the text as a whole, although citations embedded in the text were not as thorough as most
scholarlyjournals would require. At this time, we believe that the proposal and journal peer-review
systems are adequately addressing the subject's de minimis approach to citation. We have written
the subject to advise that poor citation may lead to hture allegations of research misconduct.

       Accordingly, this case is closed.   '
